L

APPENDIX
NO FURTHER APPENDIX NECESSARY.
ALL DOCUMENTS AVAILABLE ONLINE AND FROM COURT CLERKS.
DUE TO FINANCIAL INDIGENCE NO COPIES HAVE BEEN MADE OR WILL
BE MADE FOR THE COURTS. THE FEDERAL SUPREME COURT WILL BE
IN CHARGE OF ORDERING THEIR OWN COPIES AND READING ONLINE.

<r

FILE COPY

IN THE SUPREME COURT OF TEXAS

NO. 20-0793
JULES DYLAN STUER
v.
SUSAN DUESLER

§
§
§
§
§
§

Dallas County,
5th District.

January 8, 2021
Petitioner's petition for review, filed herein in the above numbered and styled case,
having been duly considered, is ordered, and hereby is, denied.

★★★★★★★★★★
I, BLAKE A. HAWTHORNE, Clerk of the Supreme Court of Texas, do hereby certify
that the above is a true and correct copy of the orders of the Supreme Court of Texas in the case
numbered and styled as above, as the same appear of record in the minutes of said Court under
the date shown.
WITNESS my hand and seal of the Supreme Court of Texas, at the City of Austin, this
the 11th day of February, 2021.

Blake A. Hawthorne, Clerk
By Monica Zamarripa, Deputy Clerk

DISMISS and Opinion Filed August 17, 2020

In The

Ctmirt at Appeals
Mttlj Histrtrt of (Texas at ©alias
No. 05-19-00752-CV
JULES DYLAN STUER, Appellant
V.
SUSAN DUESLER, Appellee
On Appeal from the 298th Judicial District Court
Dallas County, Texas
Trial Court Cause No. DC-18-07494
MEMORANDUM OPINION
Before Chief Justice Bums1, Justice Pedersen, III, and Justice Evans
Opinion by Justice Evans
Appellant Jules Dylan Stuer appeals the trial court’s order dismissing his case
against appellee Susan Duesler. Representing himself without an attorney, Stuer
filed an appellant’s brief We notified him that his brief was deficient and instructed
him to file an amended brief to comply with the Texas Rules of Appellate Procedure.

The Honorable David L. Bridges, Justice, participated in the submission of this case, however, he did
not participate in the issuance of this opinion due to his death on July 25,2020. Chief Justice Robert Bums
has substituted in for Justice Bridges and has reviewed the briefs and the record before the Court.

Stuer’s amended brief is also deficient and fails to comply with the rules.
Accordingly, we dismiss the appeal.
BACKGROUND
A.

Family Court

On April 6, 2017, Duesler was appointed as the amicus attorney for a minor
child that was the subject of a custody dispute between Stuer and his wife in the
255th Family District in Dallas County. The family court held a trial regarding the
divorce and custody proceeding in January 2018 and signed a Final Decree of
Divorce on March 23, 2018.
B.

District Court

On June 8,2018, Stuer filed a lawsuit against Duesler in Dallas County Distict
Court alleging a claim for defamation and damages. Duesler sought immunity in
her answer pursuant to Texas Family Code section 107.009.2 Duesler then filed a
motion to dismiss pursuant to Texas Rule of Civil Procedure 91a. The district court
granted the motion to dismiss on October 5, 2018 (“October order”). On May 31,
2019, the district court heard Duesler’s motion for attorney’s fees related to her
motion to dismiss. The district court assessed attorney’s fees against Stuer by order

2

“A guardian ad litem, an attorney ad litem, a child custody evaluator, or an amicus attorney appointed
under this chapter is not liable for civil damages arising from an action taken, a recommendation made, or
an opinion given in the capacity of guardian ad litem, attorney ad litem, child custody evaluator, or amicus
attorney.” See TEX. Family CODE § 107.009.

-2-

dating May 31, 2019 (“May order”). Stuer filed a notice of appeal regarding the
October order and the May Order.
Court of Appeals

C.

Stuer filed an appellant’s brief on October 17, 2019. By letter dated October
28, 2019, the Clerk of the Court sent Stuer a letter which stated as follows:
The appellant’s brief in the above referenced case does not satisfy the
requirements of Rule 38 of the Texas Rules of Appellate Procedure.
Specifically, the brief is deficient as follows:

X

The table of contents does not indicate the subject matter
of each issue or point, or group of issues or points. Tex. R.
App.P. 38.1(b).

X

It does not contain an index of authorities arranged
alphabetically and indicating the pages of the brief where
the authorities are cited. Tex. R. App. P. 38.1(c).

X

It does not contain a concise statement of the case, the
course of proceedings, and the trial court’s disposition of
the case supported by record references. Tex. R. App. P.
38.1(d).

X

It does not contain a concise statement of the facts
supported by record references. Tex. R. App. P. 38.1(g).

X

It does not contain a succinct, clear, and accurate statement
of the arguments made in the body of the brief. Tex. R.
App.P. 38.1(h).

X

The argument does not contain appropriate citations to
authorities. Tex. R. App. P. 38.1(i).

X

The argument does not contain appropriate citations to the
record. Tex. R. App. P. 38.1(i).
-3-

***

X

Text of brief is not double spaced. Tex. R. App. P. 9.4(d).

X

It does not contain a proper certificate of compliance. Tex.
R. App.P. 9.4(i)(3).

X

It does not contain a proper certificate of service. Tex. R.
App.P. 9.5(e)(2)(3).

X

Documents in appendix must be redacted to remove name
of child. Tex. R. App. P. 9.8(b).

X

Documents in appendix must be redacted to remove name
of parent. Tex. R. App. P. 9.8(b).

X

Documents contain sensitive data. Tex. R. App. P. 9.9 or
9.10.

The letter further informed Stuer that his failure to file an amended brief that
complied with the Texas Rules of Appellate Procedure within ten days could result
in dismissal of his appeal. Stuer filed an amended brief on November 7, 2019.
ANALYSIS
A.

Failure to Comply with Rule 38.1

In Texas, an individual who is a party to civil litigation has the right to
represent himself at trial and on appeal. Tex. R. Civ. P. 7. The right of self­
representation carries with it the responsibility to adhere to our rules of evidence and
procedure, including our appellate rules of procedure if the party chooses to
represent himself at the appellate level. See Bolling v. Farmers Branch Indep. Sch.
Dist., 315 S.W.3d 893, 895 (Tex. App.—Dallas 2010, no pet.). Courts regularly

caution pro se litigants that they will not be treated differently than a party who is
represented by a licensed attorney. Id. To comply, an appellant must articulate the
issues we are asked to decide. Lee v. Abbott, No. 05-18-01185-CV, 2019 WL
1970521, at *1 (Tex. App.—Dallas May 3,2019, no pet.) (mem. op.). The brief fails
if we must speculate or guess about the appellant’s contentions. Id. We are not
responsible for identifying possible trial court error, searching the record for facts
that may be favorable to a party’s position, or doing legal research that might support
a party’s contention. Id. Were we to do so, even for a pro se litigant untrained in
law, we would be abandoning our role as judges and become an advocate for that
party. See Valadez v. Avitia, 238 S.W.3d 843, 845 (Tex. App.—El Paso 2007, no
pet.).
Our appellate rules have specific requirements for briefing. Tex R. App. P. 38.
These rules require appellants to state concisely the complaint they may have,
provide understandable, succinct, and clear argument for why their complaint has
merit in fact and in law, and cite and apply law that is applicable to the complaint
being made along with record references that are appropriate. TexR. App. P. 38.1(f),
(h), and (i). When deciding whether an appellant’s brief is deficient, we do not
adhere to any rigid rule about the form of a brief. See Bolling, 315 S.W.3d at 895.
Pro se litigants may not be versed in the form of briefing favored by seasoned
appellate practitioners. Id. We do, however, examine briefs for compliance with
prescribed briefing rules, including specifically, in this case, rule 38.1. Tex. R. App.
-5-

P. 38.1. After a close examination, if we can conclude a brief complies with the
Texas Rules of Appellate Procedure, we submit the appeal for review and decision
on the merits. Lee v. Abbott, 2019 WL 1970521, at *1. If we cannot, we may dismiss
the appeal as we are authorized to do. Tex. R. App. P. 42.3.
In this case, our notice to Stuer informed him that his brief failed to comply
with the Texas Rules of Appellate Procedure. Stuer’s amended brief, however, fails
to remedy these deficiencies. Although Stuer purports to present six issues for our
review, his brief fails to present applicable facts, argument, authorities and record
references for each purported issue.

To the contrary, Stuer’s brief is largely

incoherent and consists of a string of jumbled and chaotic references to laws,
constitutional rights, alleged crimes, wrongdoing and complaints which are
irrelevant to the underlying case. For example, Stuer’s amended brief references
violations of “Federal Victim’s Rights Law, n a Federal Victim’s Rights Act,” and
due process law. Although Stuer mentions that the trial court “erred in granting]
Dismissal of the full Defamation case” in the issues presented to review, there is no
legal analysis of this argument or any citation to relevant supporting authorities. The
amended brief also complains of action and wrongdoing by individuals who are not
defendants in the underlying action such as his ex-wife’s attorney in the divorce
proceeding. Further, the amended brief is completely devoid of record references.
See Hernandez v. Dallas Indep. Sch. Dist., No. 05-17-00227-CV, 2018 WL
1835692, at *2 (Tex. App.—Dallas Apr. 19, 2018, no pet.) (mem. op.) (“Because
-6-

Hernandez’s brief is unsupported by appropriate citations to the record, he has
preserved nothing for our review.”). Because Stuer has failed to comply with the
briefing requirements of our appellate rules after having been given the opportunity
to do so, we dismiss appellant’s appeal. Tex. R. App. P. 42.3.
B.

Motion to Dismiss

Even if we had concluded that Stuer’s amended brief met the procedural
requirements, Stuer has failed to assert how the trial court erred in granting the
dismissal of the case.
Dismissal is appropriate under Rule 91a “if the allegations, taken as true,
together with inferences reasonably drawn from them, do not entitle the claimant to
the relief sought. .. [or] no reasonable person could believe the facts pleaded.” See
Tex. R. Civ. P. 91a. Appellate courts review a trial court’s award of a dismissal
under Rule 91a under a de novo standard of review. City ofDallas v. Sanchez, 494
S.W.3d 722, 724 (Tex. 2016).
In her motion to dismiss, Duesler argued that the trial court should dismiss
Stuer’s defamation case for two reasons:
(1) Plaintiffs defamation cause of action has no basis in fact as the
alleged defamatory statements of Ms. Duesler to Faith & Liberty’s
Place Family Center (and the transmission of a court’s Final Decree of
Divorce) were based on Plaintiffs own statements (See Plaintiffs own
admission in his First Amended Petition, Paragraph 10(c): “This was
based on conditional statements.”); and
(2) Plaintiff s defamation cause of action has no basis in law as Ms.
Duesler’s statements and transmission of the court’s Final Decree of
-7-

Divorce were made in her official capacity as an Amicus Attorney for
which she enjoys immunity.
The trial court did not specify the ground or grounds upon which it granted the
motion to dismiss. Accordingly, Stuer was required to challenge both grounds raised
by Duesler in the motion to dismiss. See Estate of Savana, 529 S.W.3d 587, 592
(Tex. App.—Houston [14th Dist.] 2017, no pet.) (“If an order granting a Rule
91a motion does not specify the grounds for dismissal, a party appealing the order
must challenge every ground upon which the trial court could have granted the
motion.”).
We first note that Stuer did not address Duesler’s first argument in either his
trial court pleadings or on appeal. Accordingly, he has failed to challenge all
grounds upon which the trial court could have granted the motion to dismiss and the
appeal fails for this reason. See Parkhurstv. Office ofAtt’y Gen. o/7bx,481 S.W.3d
400, 402 (Tex. App.—Amarillo 2015, no pet.) (quoting Berger v. Flores, No. 0312-00415-CV, 2015 WL 3654555, at *4 (Tex. App, Austin June 12, 2015, no pet.)
(mem. op.)) (“[I]it is appropriate to impose upon an appellant attacking a dismissal
under Rule 91a the same obligation as one attacking a summary judgment when the
trial court fails to mention a particular ground on which it relied. In each situation,
he must negate the validity of each ground upon which the trial court could have
relied. If he fails to address any particular ground, 'we must uphold the [order] on
the unchallenged ground.’”).

-8-

In regard to the immunity argument, the Texas Family Code provides that “[a]
guardian ad litem, an attorney ad litem, a child custody evaluator, or an amicus
attorney appointed under this chapter is not liable for civil damages arising from an
action taken, a recommendation made, or an opinion given in the capacity of
guardian ad litem, attorney ad litem, child custody evaluator, or amicus attorney.”
Tex. Fam. Code § 107.009(a). The statute further provides that “[s]ubsection (a)
does not apply to an action taken, a recommendation made, or an opinion given: (1)
with conscious indifference or reckless indifference to the safety of another; (2) in
bad faith or with malice; or (3) that is grossly negligent or willfully wrongful.” Id.
at § 107.009(b). In this case, Stuer fails to assert which exception applies in this case
so that Duesler may be held liable. Further, Stuer failed to present any facts or
argument in support of his assertion that Duesler is not immune from liability based
upon her role as an amicus attorney in the divorce proceeding.
For all of these reasons, we conclude that had we looked at the merits of the
case, we would affirm the trial court’s order granting dismissal of the case.

9-

CONCLUSION
As Stuer failed to comply with the briefing requirements of our appellate rules
after having been given an opportunity to do so, we dismiss appellant’s appeal.

/David Evans/
DAVID EVANS
JUSTICE
190752F.P05

-10-

Otourt of Appeals
3ffftty district of (Texas at Dallas
JUDGMENT
JULES DYLAN STUER, Appellant
No. 05-19-00752-CV

On Appeal from the 298th Judicial
District Court, Dallas County, Texas
Trial Court Cause No. DC-18-07494.
Opinion delivered by Justice Evans.
Chief Justice Bums and Justice
Pedersen, III participating.

V.

SUSAN DUESLER, Appellee

In accordance with this Court’s opinion of this date, the appeal is
DISMISSED.
It is ORDERED that appellee SUSAN DUESLER recover her costs of this
appeal from appellant JULES DYLAN STUER.

Judgment entered this 17th day of August 2020.

-11-

FILE COPY

Jfiftlj Court of ^Ippeate
600 Commerce Street, Suite 200
Dallas, Texas 75202

June 25, 2019

RE:

Case No. 05-19-00752-CV

Style: Jules Dylan Stuer
v. Susan Duesler
The Court today filed appellant’s notice of appeal in the above referenced cause. The 5th
Court of Appeals follows the Standards of Conduct adopted by Texas Supreme Court and Court of
Criminal Appeals order.
Trial Court Case No. DC-18-07494
THE HONORABLE EMILY G. TOBOLOWSKY
298TH DISTRICT COURT
GEORGE ALLEN SR. COURTS BLDG.
600 COMMERCE, BOX 822
DALLAS, TX 75202
* DELIVERED VIA E-MAIL *

Lisa Matz, Clerk

Jf iftl) Court of Appeals
600 Commerce Street, Suite 200
Dallas, Texas 75202

June 25, 2019

RE:

Case No. 05-19-00752-CV

Style: Jules Dylan Stuer
v. Susan Duesler
The Court today filed appellant’s notice of appeal in the above referenced cause. The 5,h
Court of Appeals follows the Standards of Conduct adopted by Texas Supreme Court and Court of
Criminal Appeals order.
Trial Court Case No. DC-18-07494
RYAN MCFARLIN
THE MCFARLIN FIRM, PLLC
PO BOX 224114
DALLAS, TX 75222-4114
* DELIVERED VIA E-MAIL *

Lisa Matz, Clerk

Otourt of Appeals
iFiftlj ©iatrfct of ®exaa at ©alias
MANDATE
TO THE 298TH JUDICIAL DISTRICT COURT OF DALLAS COUNTY,
GREETINGS:
Before the Court of Appeals for the Fifth District of Texas, on the 17th day of
August 2020, the cause on appeal to revise or reverse the judgment between
JULES DYLAN STUER, Appellant
No. 05-19-00752-CV

V.

SUSAN DUESLER, Appellee

On Appeal from the 298th Judicial
District Court, Dallas County, Texas
Trial Court Cause No. DC-18-07494.
Opinion delivered by Justice Evans.
Chief Justice Bums and Justice
Pedersen, III participating.

was determined; and this Court made its order in these words:
In accordance with this Court’s opinion of this date, the appeal is
DISMISSED.
It is ORDERED that appellee SUSAN DUESLER recover her costs of this
appeal from appellant JULES DYLAN STUER.
WHEREFORE, WE COMMAND YOU to observe the order of the Court
of Appeals for the Fifth District of Texas, in this behalf, and have it duly obeyed
and executed.

WITNESS the HON ROBERT D. BURNS, III, Chief Justice of the Court of
Appeals, with the Seal thereof affixed, at the City of Dallas, this 25th day of
February 2021.

Lisa Matz, Clerk

-2-

r

Case Numbers Sheet:
AG:

CGS-73496

OAG:

0013611355

CPS 2017-2018:

457-369-27

CPS 2019:

723-073-92

CPS 2020:

735-292-49, 740-387-24

255th Court Divorce:

DF-17-05507

255th Court Child Custody:

Defaulted

Recused.

191st Court Defamation:

DC-18-07493

298th Court Defamation:

DC-18-07494

Malpractice:

Defaulted

Recused.

DC-19-16060
DF-20-16005
Now in: 68th Court

DC-19-18091

162nd Court Finance:
5th Court of Appeals:

05-18-01220-CV Dismissed, 05-19-00752-CV

Supreme Court TX:

20-0793

Writ of Mandamus:

05-18-01346-CV

State Auditor's Office Control # for Crimes:

21-0927, 3883-01-262

Texas Commission on Judicial Conduct (SGC) #:

21-0312, 21-0313

Ross and Mathews Legal Shield Membership Number:

10148624959
TX-6N8-43W

2021-301901 for Recipient Fraud 16 area General Investigation
2021-301902 for Recipient Fraud was sent to IG area WIC Recipient.
TREC COMPLAINT: 180508
US Department of Justice Civil Rights Case: 31-041-JCN, 62291-LWN
Child Solicitation Case: 82-070527
Missing and Exploited Child: 817-12756
AG- CV Compensation Program: VC-211-10679
US Department of Treasury claim number for Whistleblowers program: 2021-004815, 2021-007250

FTC: 131232589
SEC: 16158-374-106

Sincerely,

Mr. Jules Dylan Stuer obo DBA
The Estate of Lily Ana Stuer
Criticalfiles00777@gmail.com

(469) 471-4200
1238 Dalhart Dr.,
Richardson, TX 75080
NCBE: N-10562079
LSAC: L-41102125
FBI Victim ID: 5735064

Case Brief Sheet:
1255* Court Divorce;

PF-17-05507]

(Stuer vs Stuer, 255th, Judge Cooks Now Recused., Defaulted Decree to Marital
Settlement Agreement / Property Division Agreement, in 68th Malpractice
Court)
Facts: Multiple instances of Aggravated Perjury from misrepresentation of
Amicus, opposing lawyer Tadlock, and mother to protect their positions together
constructively, maternal child abuse (visitation and alienation now fully
documented for CPS, Department of Justice, and Department of Corrections in
2021), and Fraud in Court. Crimes overcome the truth in the 255th Court. The 255th
Court does NOT check for aggravated peijury, fraud, or maternal child abuse
patterns (parental alienation or parental visitation child abuse of children and as
such break their own Standing Order). The Court is heavily sexist and slanted
toward biased rulings and collecting child support for women. The Court has
authorized attorneys acting as Amicus to “strip children naked”, lie about it in
other Courts (As in Duesler Testimony 298th, Court), accept Title IV Child
Support, due to RICO violations, and or for some possible profit in fee or
solicitation money, and subjectively break their own Codes of Conduct, Standing
Orders, and Federal VRA laws whenever they’d like. These facts were shown
through various civil lawsuits, complaints, after a father didn’t receive his daughter
once home during divorce without signs of serious maternal abuse issues and was
illegally blamed in Decree, through subjective libel, for the issues. The 255th Court
is systematically victimizing adults and victim children in their rulings without
regard for law. The father was subsequently set up, defrauded, and blamed for
mother’s poor behavior on Decree, to simply solidify child support, without any
real evidence or criminal prosecution for crimes: “stalking” and “neglect”.
Procedure: The victimization and defrauding of Mr. Stuer and maternal abuse of
Miss. Lily Ana Stuer was not a secret as Mr. Stuer profusely documented it with
time stamped notes, representatives from federal agencies, video, and audio files.

Issue: If crimes are allowed to be performed constructively what is the Court really
running? Do Court officials get to biasedly discriminate against sex, simply to
support Title IV functions for lawyers to collect fees? Do Court officials get to
make up subjective lies and become complacent to crimes about subjects in order
to achieve political outcomes or sexist / biased based monetary income or other
malicious biased outcomes? Is a fraudulent document (with obvious subjective
libel and forgery) filed by the Court still enforceable?
Reasoning: Federal VRA rights prevent maternal child abuse and should have
prevented it in this case. Federal laws were conveniently overlooked by lawyers
and the Court to fit their own designated outcomes for the case. Title IV access is
only given to government agencies not individual attorneys but Judge Cooks ruled
against this access and found that she could direct monies to Court sponsored
attorneys. Fraud and perjury are constructive crimes that take officials complacent
to those crimes in order to achieve the nefarious outcomes and sexist directives in
order to procure political immunity and money for the Court. Through time if the
Judges are improper in their ruling they will ultimately try to cover it up by
enforcing contempt, framing individuals into criminals, and holding them in
contempt for lack of payments even if they are victims of crimes.
Rule: Federal laws against constructive crimes, RICO laws, and Federal VRA laws
are necessary to achieving outcomes of restoring Miss. Lily Ana Stuer with her
father along with reconstructed estate monies which have been defrauded.
Appointment of Ombudsman with FBI has been offered to Judge Hoffrnan of the
68th Court in case: DC-19-16060 as of 2021. Federal Criminal Complaints have
been lodged with various agencies due to the treatment of victims. Fraud takes
time and money to find out and prosecute. Appointment of other financial
representatives was necessary as well due to time involved in procuring things
from well-known frauds through various agencies and places so that the numbers
work out in unison as to the goals for all involved. Appointment of representatives
for the Pro Se father, in the 68th Court, is necessary to curb the pain and provide
relief for victims.
Disposition: This case has not been disposed of. It has transformed into two
Defamation cases, one of which has made it to the USA Federal Supreme Court,
and a Malpractice case (where it is currently Defaulted four years after judgment,

and a Child Custody case which was finally Defaulted due to lack of due process
time) by Recused Judge Kimberly Cooks, with the victim child in limbo now after
being damaged with maternal child abuser, child support still asking for payments
after four years of duty to them, and abusive mother still on the run. This case is in
absolute shambles due to the criminals now involved and formed against Federal
Contractor Mr. Stuer who has forced criminals to accept responsibility for their
own actions against him as a victim and his victim child.
Dissent: Maternal abuser Stephanie abused the child throughout the divorcing
procedures, was guilty of multiple counts of aggravated perjury, fraud
(constructive/ conspiracy to defraud, Medicaid fraud, and child support fraud), and
due to the poorly run court’s ability to detect such crimes the crimes have
continued to run rampant, within the family and friend circles of victims. The
accused maternal abuser was simply given blanket control over 100% of the estate,
without any oversight or question, no punishment or accountability, her actions
four years later have now stunted a victim child’s learning abilities, people are
questioning whether the victim child has had her nose broken by the mother or
other maternal abusers, actors, and crimes have continued constructively against
Pro Se father Mr. Stuer for years due to Court’s elongated due processing, lack of
care, and financial indigence brought to the victim father after being blamed
illegally for Stephanie’s maternal child abuse syndrome. Emboldened by her
success Stephanie seeks to enforce Child Support and even goes so far out of spite
to seek Medicaid as well in an obvious fraud (With her, her father, her mother, and
her husband’s current estates worth over $100 million USD) reported under 2021301901 and 2021-301902.
■255th Court Child Custody:

iDF-20-16005:

(Stuer vs. Reynolds, 255th, Judge Cooks Recused, Defaulted Judgment, to
68th Malpractice Court)
Facts: After four years of providing for, aiding, and abetting crimes Judge Kim
Cooks was recused in this case due to issues with Enforcement of Contempt for
nonpayment of Title IV fees to a lawyer who stripped a child naked against Federal
VRA laws. Judge Cooks also has a serious issue with the Decree as it has not been
followed for access to the child by Stephanie due to ongoing maternal child abuse

crimes. Judge Kim Cooks also acted against Federal VRA laws by allowing for
crimes, subjective language, and maternal child abuse to go unreported in her
courtroom. Judge Kim Cooks chose to biasedly side with maternal criminal and not
to allow constituents to even answer the father back through email about
Emergency Issues with the now Exploited Missing and Solicited child. The Judge
still continued to try and collect Title IV Child Support for the Amicus illegally
and through illegal Contempt against State Constitutional laws to cover up her bad
decisions on the bench.
Procedure: This case got to where it stands by persistent work by a Pro Se father
who was incorrectly accused of neglect and stalking, on Decree, when the mother
had actually brought home the daughter, of the couple, every single time with signs
of maternal alienation child abuse and maternal visitation abuse, including a
bleeding rectum after staying with only adults, drug dealers, and being left by the
maternal abuser. Ultimately the procedure was followed against Federal law and as
the father uncovered the various crimes committed by the Court, Court officials,
and the mother it became obvious that “sexism”, crimes, and systematic child
abuse painted the 255th Court's poor decisions regularly. Complaints have been
lodged to the USDOJ for review, recusal paperwork was given, and a Malpractice
case outside of the Court has been designated for a new agreement between the
parents as furthered criminal issues unfold maternally.
Issue: Is Federal VRA law allowed to be broken against a victim child and victim
father while perjury and fraud are present in a civil divorce Court? What does a Pro
Se father do about such extreme sexism, fraud, perjury, and maternal child abuse in
family court as an indigent victim then of certain crimes? Can a child be protected
through an Emergency Protective Order, Writ, along with new sibling(s),
reconstructed estate, and child support now due to the father? (After four years of
continued constructive crimes against the victims have shocked the Courts, with
two recusals (possibly a third in the 68th Court if Federal laws are not followed),
Affidavits of Prosecution against certain Judges have even made certain Judges
involved partial toward criminals in a bid to save their own positions on said
crimes. It is yet to be seen whether or not the Courts are involved enough in
checking for crimes in the Civil Courts to make a difference. The indifference and
disregard for criminal issues in Civil Court has shocked a Pro Se victim father and
victim daughter as they seek relief from crime and civil disobedience.

m
Reasoning: Federal VRA Laws, Standing Orders, Lawyers Ethics and Conduct
Rule: Standing Orders, Federal VRA laws, Recusal of Judges, Penal Codes
Disposition: After ruling that a child can be given back to a victim father as a
victim with estate reconstruction, and child support for said father, a Bill of
Review and Decree will be issued to finalize the cases. The father will now need to
expunge his record to clear up issues with credit, criminal issues, and overall
dignity. Federal Supreme Court writs and funds to prevent such child abuse,
perjury, and fraud from happening in the future are being sought.
Dissent: Dissent from Recused Judge Tobolowsky, Cooks, other Judges, lawyers,
and actors now being sought for Federal crimes due to being lazily duped into
constructive fraud and filing false records with the Courts by criminals against a
victim father and his victim child. This is in turn curtailed by Lis Pendes Orders
and Assigning power to the 68th Court and the Federal Supreme Court to handle
these types of issues which arise in Dallas County, throughout the State, and
throughout the nation as no one should ever have to live with false accusations in a
Decree or Writ based on constructive crimes.
191sf Court Defamation:

DC-18-07493

(Stuer vs. Tadlock, 191st, severe latency in due process ultimately siding with
Defendant after No Discovery was made without any further study or proof)
Facts: Judge Slaughter heard the case and made a decision in the case without
adequate Discovery or Interrogatory in the case after promising to get back with
Pro Se litigant with information the following Monday after the oral arguments
were made. She did not get back to him but in the form of Dismissal letter over a
month later while the Pro Se litigant was out of town so he could not appeal the
decision.
Procedure: This case shows a consistent lack of care from Judges toward Pro Se
litigants, no reporting of maternal child abuse or crimes by the Judge even after
asked, no discovery, and ultimately no movement from the Court AT ALL against
a constructive criminal who misrepresented his case and client simply for a quick
win.

Issue: Is a BAR Certified Attorney allowed to simply disregard Federal Laws,
Civil Standing Orders, and Lawyers Code of Ethics, and defame a father
subjectively on Writ of Attachment to a victim child? Then defame the father
further on a Decree by forcing time constraints on him coercively by use of
constructive crimes? Yes; at least for a time. Perjury and Fraud have been effective
and efficient weapons for an abusive fraudulent mother, her legal team, the
Amicus, and the 255th Court who continue to shield their lies, peijury, defamation,
and blame others for their own neglect preposterously.
Reasoning: With active perjury, fraud, crimes against the victim child, defamation
about victim and hero Mr. Stuer taking it’s toll, no Discovery, the 191st Court
missed their chance to help victims and in so doing prolonged the pain, agony,
suffering, and torture. It gives a glimpse into victims’ issues with reparations,
estate reconstruction, and compensation once crimes have been committed and also
a possible reason why most victims never receive any form of compensation. Lack
of care by the Courts and dismissing issues of utmost importance to victims shows
a serious problem and inconsistency with Federal VRA laws.
Rule: Rules must, in the fiiture, require Court reporting of ALL crimes, even if
alleged, in order to better serve the commonwealth and keep track of victims and
criminals. Federal VRA laws require:
The right to full and timely restitution as provided in law.
The right to proceedings free from unreasonable delay.
The right to be treated with fairness and with respect for the victim's dignity and
privacy.
Disposition: Tadlock then afforded himself all awards, removed himself from the
family case, and is now fully unavailable for any service, documents, or
questioning even four years after the maternal child abuse has continued by
disallowing father access every two weeks to his child as Court ordered. The
maternal child abuse has continued in various forms of constructive crimes
involving mutual family members, friends, leaving the father without any voice
effectively defrauded and led to be declared vexatious by recused Judges. The
visitation being proof of maternal child abuse enough, now that vexatious

declaration has been made, and Mr. Tadlock freed from the case after writing in all
orders to his own unfair advantage, with libel and missing numbers inherent, has
left the Pro Se victim father and his victim daughter without any viable legal
remedy other than the 68th Malpractice Court and the Federal Supreme Court.
Dissent: Dissent by Judge Slaughter due to saying on record that she would: “Get
back to [you] Monday” and without further ado dismissed the case after the period
of time ungiven. Judge Slaughter also refused on record to “get involved” with
any type of required documentation in regards to certain criminal/civil cases. Judge
Slaughter gave blanket immunity to Attorney Gerald Tadlock whilst Mr. Tadlock
had committed the crime of peijury, in ink, in her courtroom Federal victim status
was not respected nor accounted for in the 191sl Court and a criminal was allowed
to offset due process yet again exponentializing pain to victims.
298AC-ourtlDetamation:

DGlL8i0749j

(Stuer vs. Duesler, 298th, Judge Tobolowsky: Recused.)
Facts: No Discovery or Interrogatory was given again but some oral arguments
were made in Court. Duesler was viewed as peijuring herself in Court by saying
that she “did Not strip Lily Ana Stuer naked”, but then about face said she “did”,
on record during the same testimony in an obvious aggravated perjury, further
rambling on to admit that “she didn’t see any signs of child abuse” in the case
where she was specifically summoned for the reason of maternal child abuse and
the father gave her and CPS a 200+ file USB outlining such maternal child abuse.
If she “didn’t see any signs of child abuse”, like she said, why would she then strip
the child naked as solicited by the abusive mother? Her attorney Ryan Mcfarlin
was also seen perjuring himself as saying: “the case is over in appeals” to the
Judge when the case had not reached an opinion yet from Appeals. He then went
on to appeals and said the “Defamation case was over” when it was not yet over
thus conftising the Courts as to the direction they should take to improperly
influence them collectively. Judge Tobolowsky ultimately refused to report child
abuse, various other crimes, and Dismissed the case making full awards to Duesler
and McFarlin. The Pro Se father then uncovered RICO issues with political
corruption as Mr. McFarlin is directly related to an Associate Judge on a similar
Court. Judge Tobolowsky was also found to have Sorority ties with Susan Duesler.

She was later Recused from the bench in the case after making judgments that the
Pro Se father was simply somehow ‘Vexatious”, in a Malpractice Case, which was
then defaulted to the 68th Court, again without Discovery / Interrogatory.
Procedure: Aggravated Perjury of the Defense proved to work again in the 298lh
Civil Court for Duesler. Subjective slander and libel were used in addition to
Perjury to confuse the Judges collectively, improperly influencing them
fraudulently, into non-action, and dismissal.
Issue: Can litigants openly use Aggravated Perjury to win cases without any
Discovery / Interrogatory? Can Judges fail to report child abuse, fail to protect a
child, and fail to comply with Federal VRA laws, and various other crimes in their
Court rooms and show this type of biased favoritism?
Reasoning: It was later found, after the Judge had called Mr. McFarlin to her
bench that the Judge obviously knew him, and Susan Duesler personally through
an Associate Judge and various other associations. Duesler later hired other
attorneys abruptly to hide the association after Mr. Stuer found out about the
conflict of interest and possible RICO violation from a sororal order of ties.
Rule: Attorney Ethics and Conduct Codes show that any crimes, subjective
slander, or improper conduct is strictly prohibited.
Disposition: Duesler then used this case to further her agenda to exploit the victim
child and her victim father through Contempt to “Pay her or Go to Jail” and
furthered her agenda to smear Mr. Stuer’s good name by declaring him vexatious
in the 298th Court during Malpractice suit which was subsequently Defaulted. All
the while Mr. Stuer was without his rightful Vi of his estate and victim daughter
and had every right to be upset about being continually victimized and alienated.
Dissent: The issues with this case then caused retaliation by Susan Duesler to
“finish [Mr. Stuer] off’ as she claimed to Mr. Fordham a Court appointed Attorney
who protected Mr. Stuer from 10 years in Jail, for Contempt in the 255th Court, for
being financially unable to pay Child Support, due to then ongoing crimes, being a
victim of fraud, and being declared financially indigent.

*

68th Court Malpractice:

DC-19-16060

(State of TX, LAAAS, Stuer vs. Duesler, Etl, 68th Court, Phase 5.)
Facts: This is a Court which handles Malpractice Attorneys. The Judge never
answered the proposed Order to Clarify, in the 30 day request for information and
therefore has broken Federal VRA laws as well as other Courts. Mr. Stuer is still
being harassed to pay for illegal conduct from attorneys, still in an unspoken
Contempt in the 255th Court for being financially indigent, not succumbing to now
Court sponsored extortion, constructive maternal crimes, and he is still listed
online as a ‘Vexatious litigant” even after a full recusal of Judge Tobolowsky who
made such declaration illegally and with more subjective libel, this time, in the
form of accusations about forgery (which serves as yet another fraudulent
document filed by the Court). The report from Susan Duesler about maternal child
abuse was a grand total of two pages. The vexatious litigant Motion due to fear of
crimes committed by herself, was upwards of 500 pages (which show her concern
not to protect the victim child but to cover up her own crimes), including various
emails, and facebook posts with no real value at all except to show that Mr. Stuer
was being stalked by the attorney and her cohorts, really cares for his daughter, is
not negligent, and that he was upset about the treatment of himself and daughter as
victims of various crimes (which is no secret). Mr. Stuer reserves the right to be
disgusted and upset by his and his daughter’s treatment as victims of ongoing
crimes which have now damaged his daughter for most of her life. No further
negotiations or solutions have been given by Duesler or Tadlock as they continue
their constructive fraud for more and more monies now assigned illegally. Other
Judges are now being sought for aiding and abetting criminals and for various
crimes associated with Failure to Report Child Abuse, Failure to Comply with
Federal law, and Failure to Protect a Victim Child.
Procedure: The Case is wrought with Level 5 Security, Third Party Funding, FBI
Ombudsman/woman and Federal Codes Statutes if allowed by the Judge, Citations,
and Laws in Regards to Federal Victims of Crimes and Exploitation. In regards to
law it is required that certain secrecy and permission regarding time are given to
unlace certain deliverables for time, ex parte, and through time to best effect the
victim children. These deliverables have not vet been respected to the
knowledge of the Plaintiff. Mr. Stuer nor his daughter have been treated with

m
fairness or dignity as victims in this 68th Court to their knowledge. The Court has
either done nothing or is doing something without any reasonable correspondence
to Mr. Stuer about his daughter. Therefore, leaving Mr. Stuer to continually email
the Court, the AG, and other organizations for help which to his knowledge has
also been unforthcoming. Without action from the 68th Court the Federal
Supreme Court is the last and only venue for relief. Mr. Stuer is requesting
that his daughter and monies awarded be returned by June 15th, 2021 or
another recusal will be issued for Judge Hoffman. Without relief in this case
two victims will continually be victimized, without movement by the Federal
Supreme Court, due to crimes and unscrupulous work by lawyers and Judges who
simply just do not care enough about others, are too lazy to research, order
transcripts, and find out, where Perjury and Fraud were performed by accused
maternal abuser, and are too complacent with crimes for their place. The child has
remained in danger due to the maternal abuse for four years, has been
damaged by the maternal child abuse, and now due to monies being sought
(with money hungry and abusive mother) is in eminent danger for further
injury. Miss. Lily Ana Stuer is a caricature of her former self due to being
exhausted by the maternal child abuse and child abuse by various maternal
actors who have solicited the child. Emergency issues should be dealt with
immediately.
Issue; Ultimately this case has shown how far behind Courtrooms in Texas are in
dealing with Child Abuse, Fraud, and Peijury efficiently and effectively in a civil
setting. The main issue facing the 68th Court is: How is time conducted until a safe
return of the Missing Exploited Solicited and Victim Child? How does the 68th
Court manage, appoint, and unlayer the Emergency Enforcement Order, Writ of
Attachment for multiple children (in a family unit), now that maternal criminal has
complicated the situation with another child, yet another husband, has over 20
trusts, properties, accounts? How is the financial aspect of appointments, legal
actions, and the settlement to return reconstructed estate awards alongside of the
child procured without substantial risk to the child (from a money hungry and
maternally abusive mother along with various other criminal actors), as a Pro Se
Attorney? The primary issue is that the 68th Court Judge Hoffman may enter into
an all too common issue of lack of care and simply Dismiss the case, or not follow
up with appointments and paperwork, due to laziness, which may have been the

m
ultimate excuse for other Courts as well to not protect victims. Laziness and
Complacency with crimes is an issue that needs to be dealt with on a Federal level
for VRA cases, by the Federal Supreme Court, in order to deal with the issues at
hand or the victims become victimized on a greater scale and justice is not served.
Furthermore, Judges and Attorneys begin to aid and abet in the crimes
constructively as is the case with Cooks, Duesler, and Tadlock to save their own
skin. A simple appointment by a Pro Se litigant should be enough to gain access to
Federal VRA ombudsman/woman and processes. Pro Se litigants are by no means
required to have no emotion toward torturous treatment of their only child and
100% knowledge of Court processes. Pro Se victims should be afforded certain
rights which others are not. Courts who have no incentive to look into the truth of
cases which involve regular child abuse allow abusers frauds and criminals like
Stephanie to effectively get away with prolonged maternal child abuse (4 years),
fraud, and perjury, amongst other crimes which indeed mar not only the victim
child but a whole family of people. If the Judges don’t care about protecting and
redeeming victims in some form of due process then who will?
Reasoning: Various lawyers and Judges are very poorly studied at Federal law in
regards to safety for children and are improperly prepared to deal with high level
criminal activity: Perjury (aggravated) and Fraud. The intent of this case is to
provide the Pro Se father with further study into law, legal processes, and to
educate and allow for negotiations by appointed authors to prevail at the end of
June 15th, 2021. Ex Parte is a necessary option for victims of Federal crimes. (It
was actively used on the victim father, through the 255th Court, for Writ and
Decree, without any crimes being committed by him, due to subjective defamation,
and as such ex parte Orders should be afforded for him and his victim daughter due
to that problem the 255th Court created for itself in Default.) Judges and Lawyers
should also be required to go to jail for such egregious violations of the law and
laziness with at least three charges: Failure to Protect a Child, Failure to Report
Child Abuse, and Failure to Comply with Federal VRA laws. If they were
punished or even simply educated these types of issues wouldn’t take 2/3s of a
child’s young life to remedy and they would be less prone to lazy behavior, lack of
research, lack of Federal Compliance, and lack of study.
Rule: Federal Victim’s Rights Act Rules, IRS Whistleblower Rules, TX AG Civil
Rules

r

Disposition: This case ends in criminal court with the maternal abuser and other
actors (possibly even Judges and attorneys) being sentenced to their crimes, by FBI
ombudsman and State of Texas Prosecutors, after settlement monies are paid in full
to the State of Texas, IRS, FBI, other enforcement agencies and departments, Mr.
Jules Dylan Stuer, and The Estate of Lily Ana Stuer through the 68th Court or the
Federal Supreme Court.
Dissent: Dissent will come in the form of civil and criminal litigation throughout
this case and others due to civil devices already appended before Recusal of such
Judges and lawyers guilty of crimes, defamation, and improper malpractice
conduct. Two things that must be quelled, removed, and struck from the record, by
the 68th Court, or the Federal Supreme Court, during this case by gaining control
over other Courts in Default,'are: 1) Contempt charges to the victim father for
being defrauded, losing his “family businesses, assets, etc” in full, and being
forced into severe bouts of poverty as a financially indigent victim. 2) Vexatious
designation which ruins every facet of litigation, education, and life due to victim
predator criminals, attorneys, and Judges. With contempt and vexatious charges in
place it gives the maternal abuser, bad lawyers, bad judges, more excuses to evade
the law and violate the victims.
162nd Court Finance;:

DC-19-18091

(Stuer vs. LVNV etc, 162nd Court)
Facts: There were no facts given by the LVNV conglomerate. They never
provided adequate Discovery / Interrogatory and were therefore dismissed by the
Court. Mr. Stuer could not find where the numbers were mixed up during the
Dismissal but after a certain number of days Mr. Stuer did request that the Court
Dismiss his case and that no balance should be leveraged. In so doing he set
precedence in Court and was awarded with the ability to not be served, by Officer
of the law, due to harassment. Victims may now request with Federal VRA
protection to only be contacted by certified mail while they are victims of fraud,
crimes, etc. The Case was ultimately Dismissed with various time quotients being
set with the 162nd Court in regards to removing any balances due. Balance was
erased by litigation’s design (after 90 day stipulations).
Procedure: Form is posted next to mailbox within 2 Feet.

Issue: Whether a giant conglomerate holdings company could pursue a victim of
crimes for monetary award and leans while going through the effects of crimes.
Might there be a pendency in boisterous and cash laden requests and leans while
victimized? Yes, the Court, to victim Mr. Stuer’s knowledge, then agreed and
Dismissed the case along with all claims for debt leaving a 0 balance.
Reasoning: Victims who are Financially Indigent and Indentured Apprentices are
*Federally Protected Classes who are afforded VRA rights at any time after crimes
were committed and victimization was progressing.*
Rule: Various Federal laws from VRA, including but not limited to Constitutional
laws, Civil laws, and what constitutes “rights to be happy”. Thus victims may be
free from harassment about finances after being defrauded and any further planned
victimization based on finances may be curtailed for a time if legal and
appropriate.
Disposition: It will dispose of with Credit Agencies due to victim status. Contested
balances are still an ongoing issue to the heartlessness of corporate deviance.
Dissent: Corporate Dissent has occurred in this case due to issues arising from
amount of debt at time of closure. They have tried to trick the credit agencies at
this point into collections with other collection agencies and attorneys. Mr. Stuer
has recently put a freeze on his and Lily’s credit account as it has also been
ravaged by illegally procured Title IV child support. Stuer also opened up an FTC
and SEC case in regards to “marriage terrorist” criminals, attorneys, and judges.
5th Court of Appeals:

05-18-01220-CV Dismissed. 05-19-00752-CV Dismissed

Highlights:
• Susan Duesler and other attorneys perjuring themselves in Court, during the
pendency, about whether the case in the 191st and 298th were done or not to
improperly influence Judges and further deceive the Courts.
• The Court of Appeals Judging on old copies not Amended Versions which
were sent in due time. Not enough research into case, not enough Federal
Protection, or rights granted for victims of crimes by 5th Appeals Judges.
• No effort made at all to read the Amended version of Petition sent.

m
• Dismissed case without any forethought in an absolutely abhorrent display
of ignorance in Federal Victims Rights laws, penal codes, and abilities to
link cases, problems, or complaints at all causing further victimization.
• Further services could have been chances to report to Federal agencies for
Compensation funds or due to educational programs which were funded but
unforthcoming in this case. Federal Victims’ Rights Act is something that
encompasses all civil and criminal issues intertwined in this case. *Once
crimes have been committed in Civil Court it is against the law to fail to
report crimes, protect a victim child from crimes, and to follow Federal acts
even for Appeals Court and Supreme Court Judges.*
(Stuer vs Duesler, 5th COA, Judges reluctant to act on behalf of victims
ultimately aiding, abetting, and contributing to further crimes/victimization.)
Facts; Duesler performed criminal acts (from which there is no immunity) to a
victim child by stripping her naked, lied about it in the 298th Court to the victim
child’s victim father, claimed “she didn’t see any child abuse”, when that was what
she was appointed to do, lost access to Lily, who ultimately became Missing and
Exploited (along with all of her and her father’s estate money), and promptly went
on to forcibly collect child support from a father out of malice and sexism trying to
“finish off’ the victim father in jail or a mental institution the whole time. As the
Court records and CPS records show the victim child was not returned home once
to the Pro Se father without severe signs of maternal abuse which makes Duesler’s
actions out of bad faith and malice. The woman the Amicus Duesler subjectively
defamed Mr. Stuer for, defrauded him socially and financially, is now wanted for
over 12 crimes, including Exploitation of Child for Child Support. Ms. Susan
Duesler and other attorneys Perjuring themselves in Court various times in various
Court rooms tried to let excessive time, Malpractice, and Defamation ruin the
victims. The 5th Court of Appeals, dizzied by constant litigation by an obviously
not negligent but persistent Pro Se father, faltered on which Judges were in charge
and contributing to the case, and one Judged on old copies of a Petition not
Amended Versions which were sent. Not enough research into case was given, no
criminal research into testimony at all, and ultimately no Federal Protection or
rights were granted for victims of crimes. The Judges thus contributed to various

*

constructive crimes against victims. This case shows an inherent issue with the 5th
Appeals Court for victims of Federal Crimes who show up from Civil Court.
Procedure: This is something that could have been cleared up a long time ago
with the right choices by the judiciary. Unfortunately they did not foresee the
effects of certain types of ongoing maternal child abuse syndrome, fraud, and
perjury and what they would have as a “long term effect”. In this case since it has
been a brutal torturous battle for the victim child and her victim father that The
State of Texas, Agencies, Departments within the Federal government were
requested to be contacted to see if that relief would be granted with International,
Federal, and State laws. The 5th COA dismissed the requests, relief, and made
commands to force a financially indigent victim to pay the criminals who
constructively defrauded him in further bouts of extortion and due to this certain
Judges have been asked to take Federal VRA classes or be prosecuted for Failure
to Report, Protect, Comply, and various other crimes.
Issue: Is certain Defamation (when it involves social isolation which contributes to
maternal parental alienation syndrome) considered malice? Is Duesler simply
“immune” to crimes, her code of conduct, and any actions she took to craft and
exploit two Federal victims (one now Missing, Solicited, and Exploited directly
because of Duesler’s actions in Court)? Are Judges required to report crimes? Help
victims of crimes? If they do not are they required to take VRA classes and to
correct the actions? Or can they simply dismiss victims’ claims, disregard any
proof, and disregard all responsibility?
Reasoning: Are Amicus attorney’s really immune to law breaking (stripping
children naked, sexism, crimes, defamation)? Does Constructive Defamation,
Fraud, and Aggravated Perjury play into Maternal Alienation Syndrome?
Rule: Federal Victims Rights Laws, RICO, International, Federal, Civil, Standing
Orders, USA
Disposition: The case was simply thrown out and Dismissed apparently due to
grammar mistakes, poor follow up by the 5th COA, victims which are denied
protection, Failure to Comply with Federal laws, and crimes which again go
unreported.

#

Dissent: Dissent may come from Enforcement and other Judges in the Supreme
Court. Proof has been given, may be given at any time, and is available on the
record.
[Writ of Mandamus:

05-18-01346-CM

(Stuer vs. Duesler, 5COA)
Facts: Writ of a Mandamus would overturn negative impacts toward a child in
unfair biased defamatory litigation. Susan Duesler and Gerald Tadlock used
slanderous subjective terms, against their Rules of Conduct and Code of Ethics, to
defame Mr. Stuer in a Decree and in Writ. Due to the circumstances, of being Pro
Se, Mr. Stuer went after Mandamus, again and again to perfect the Petitions,
ultimately the Opposing Counsel scared the Court about him committing a crime
with one of the Petitions in their libelous paperwork submitted to the Court and
suggested he forged a document. This was later found to be furthered evidence of
documented Perjury and Libel (of which each lawyer eventually found that they
had multiple counts of trying to cover for all the lies of the maternal criminal.).
Procedure: Dismissed and Deferred to the Federal Supreme Court due to offenses
of certain COA 5th Appeals Court Judges for breaking Federal VRA and criminal
laws.
Issue: Father’s Rights over his Estate and Victimized Child, Does a father have the
right to lodge a Mandamus with the Court?, Yes. But does the father have a right to
have it properly investigated and acted upon in a way that would protect the child,
as victims, without further penalty?
Reasoning: Child’s Rights. International rights toward children. Federal and State
alliance with Standard Orders. Federal and State alliance with Federal VRA
Orders.
Rule: The Rule becomes that Judges and Attorneys must take Federal Victims’
Rights Training within 90 days or be prosecuted to the furthest extent the law will
allow.
Disposition: It is Disposed of and redirected to the Federal Supreme Court and the
68th Court.

Dissent: Mother misusing dismissals for inherent win to continue depriving father
and daughter of time together. Due process not respected by any party and used to
further torture victims of crimes. Civil Orders for father to see child further broken
by the mother. Further harm and damage to the child’s focus and learning abilities
done due to maternal syndrome.
Supreme Court TX:

20-0793;

Dismissed the case without any formal reason due to lack of care, overloaded
Courts, and Covid-19 issues with economy illegally after an over 90 day Default,
and no answer by Defense in 2020.
[Federal Supreme Court:

number pending

Please order transcripts for further documentation and for more lower Court
opinions. TXcourts.gov also has options to recover old Court documents for
the Federal Supreme Court.
The lower Court opinion of the Texas Supreme Court has been given in an
attachment to satisfy Rule 14.1.
Updates
have
been
sent
to
opposing
counsel
via
email:
susan@dueslerlaw.com, ryan@mcfarlinfirm and fraudreport@texasbar to
satisfy rule 14.5.

Criminal Court:
IF-? Stephanie’s False Report Abuse/Family^Violence used to ruin family and
defraud estate due to parental alienation syndrome, post pardum, and big
[three drug addiction'
(State of Texas vs Stuer, Criminal Court)
Facts: Stephanie was willing to hit and choke herself to steal a sleeping child by
waking her up in an abusive way and running out the door with the family dog to
further hurt herself in bouts of serious big three drug addiction (meth, heroin,
cocaine). To cover up her addiction and syndrome she blamed it all on Mr. Stuer
and he was arrested for the crime. Mr. Stuer later tested the nursing child and
found evidence of big three addiction in the nursing baby’s urine. Stephanie went
back to deny that she was ever in danger. Stephanie denied that Mr. Stuer ever hurt
her, was physically abusive, or ever hit her in the 255lh Court to Judge Beauchamp
during divorcing procedures. Later in the 255th Court divorcing procedures she
began lying, led by her attorney Tadlock, and Amicus Duesler, in order to cover up
her own maternal child abuse patterns, big three addictions, and familial suicide
issues.
Procedure: The family was shook by the news due to Stephanie’s forward
planning and deception which took place over the course of years. She used this
case to pre-position herself to defraud Mr. Stuer during divorce.
Issue: Stephanie on her own accord wrote a letter to the AG disavowing the issue.
Is it the position of the Court to further test or accuse Mr. Stuer? No., The question
facing the court then becomes: Should it be dismissed? Yes; was the answer the
Court found. Now is it necessary to revisit the case in order to better understand
her deception and place Stephanie in Jail for a False Report?
Reasoning: Family Violence is a regular event. This event was planned by
Stephanie and not regular. Mr. Stuer was being unseated, gas lit, and victimized by
his wife during a furthered emotional bout of maternal child abuse syndrome, big
three drug addition, and something didn’t make sense to the Court about her
claims.
Rule: Penal Code: False Report

Disposition: This case was disposed of and will be further sealed at a certain point
in Re: Expunge All Criminal Records of Mr. Stuer.
Dissent: Dissent was further gleaned by further acts of maternal child abuse,
maternal perjury, and maternal fraud. Stephanie was then able through this case to
claim Mr. Stuer was abusive and found herself empowered to endanger, neglect,
abuse her own child to gas light and blame Mr. Stuer illegally, unethically, and
immorally during divorce proceedings
F-1714800Y Interfere with Public Duties (due to breach of Federal VRA law, by
lawyers and Judges, which led to a dangerous breaking and entering, assault]
attempted murder, and kidnapping for ransom by Civil Peace Officers)
(State of Texas vs Stuer, Criminal Court)
Facts: Miss. Lily Ana Stuer was being maternally abused by her mother
ritualistically and sadistically at the onset of this case during every visitation. Mr.
Stuer, after having been tortured with the fact of constructive mistreatment of him
and his only child, by lawyers and judges who simply chided and cheered along
with Stephanie which further enabled and empowered her to abuse the victim
child, defraud the estate, and perjure herself in Court, found himself subject to a
carefully planned early morning breaking and entering where he was beat, shocked
with over 3 million volts, and almost shot in the face, while his daughter screamed
in terror, due to broken Federal VRA laws. He had warned the opposing counsel
that he would not put up with any more maternal child abuse before his victim
child was returned to him at the beginning of July 2017 with a full body of rashes,
by her neglectful mother, and rushed to the emergency room. Mr. Stuer did not feel
comfortable returning his child to her maternal abuser in August, 2017 and had
recently placed a Full Custody Motion in to the 255th Court to stay until Court in
September. The opposing attorneys went to Court without him and his damaged
daughter, defamed him, lied to Judge Beauchamp about Lily maybe getting
abducted to Mexico, amongst various other lies, taken out of context and place
from emails, and furthered a Writ to Lily’s body dead or alive using subjective
libel and misplaced diction. In the end due to Mr. Stuer’s temperament, advanced
martial arts prowess, kind will, and piety he did simply escape the beating and

gunpoint to return to the 255th Court with paperwork, that following Friday, only to
be led away in restrains after his heroic legal action.
Procedure: This case has been Conditionally Deferred and now Dismissed.
Issue: Was Mr. Stuer right to interfere with a Public Duty after crimes were
committed against him and his only daughter? The Court agreed Yes, he is., Is Mr.
Stuer dangerous to peace officers? No, they weren’t scratched or bruised according
to their own testimony, Issue then facing the Court becomes: Why did Duesler
Tadlock and Stephanie characterize Mr. Stuer as such a monster when he was
protecting his only daughter and Federal Victims’ Rights Act Laws?
Reasoning: Civil law, Criminal law, and Federal VRA laws.
Rule: Federal VRA rights ensure that children are NOT to be returned to accused
abusers. No Writ and No Decree should have been offered, negotiated, or given if
there is an accused or admitted child abuse patterns in the mother. To leave that out
of Decree and blame it on Mr. Stuer is Constructive Fraud, Filing a False
Document with the Court, Aggravated Perjury, amongst other crimes.
Disposition: The process after Writ and Decree libel and fraudulent documents to
the Court now includes criminal action which makes civil cases more complex. In
addition to marring Mr. Stuer’s record with criminal charges the opposing
attorneys vowed to “finish him off’ in jail or a mental institution. Since they have
been unable to set him up to be further defrauded out of his domicile or murdered
in recent criminal conspiracy, but they have tried, and they have continued to try to
ruin his credit record and criminal record by such activity.
Dissent: Is found by mother then able to break Standing Orders, not to disturb the
child, Decree to allow the father to see the child, and thus commit crimes without
any enforcement by the Court. Winning by unethical and criminal means then
becomes the norm for bad lawyers, Stephanie, and various criminal actors.

F-2045675 AA/DW Dismissed / Deferred / Nonsuited

. _j

Highlights:
• Failure to protect, False Report, Endangerment (due to Covid outbreak), and
a Failure to Comply with civil law (castle doctrine) for Officer Collins
• Great work by Sgt. Willardson and Officer Montemoyaeze to clear out the
home away from criminal trespassers, who left without incident, before
Officer Collins took Mr. Stuer to jail and allowed the criminals back in to
steal and vandalize more than $80,000.00 worth of weapons, equipment, and
do damages to the home.
• Mr. Stuer has paperwork for “power of attorney” over Tina who was a
subject to the illegal criminal trespassing and criminal conspiracy, which
specifically states: “no right to possession” for anything in the home, “no
rights to autostay” also held. Tina is a criminal guilty of conspiracy with
Torrie Kollar Shaw, David Shaw, Nicholas Dee, James Kollar and Stephanie
to defraud and murder Mr. Stuer.
(State of Texas vs. Stuer, Criminal Court)
Facts: This case is in regards to crimes by Officer Collins who went after the
innocent instead of criminal trespassers. This is also a false report of assault as Mr.
Stuer was the one who was assaulted in front of his friend Ms. Kimberly Kass. The
subject Nick Dee was a convicted criminal terrorist who had a history of bossing
people around and physical abuse. He was a criminal trespasser and Mr. Stuer had
the advantage of the castle doctorine. Mr. Stuer was eventually forced to defend
himself against the criminal trespasser and aggressor. Mr. Stuer was rightfully and
eventually Non Suited in the case by the State.
Procedure: False Charge, Investigation, Dismissal.
Issue: Home security away from terrorist predators, big three drug addicts,
criminal conspiracy actors, and criminal trespassers is the main issue. The main
question facing the Court is can you defend your own property against criminal
trespassers involved in big three drug addiction, criminal conspiracy, and terrorism
in Texas? The Court ruled in favor of a victim, Mr. Stuer, private contracts,
liberties, and home security.

Reasoning: Civil and Federal laws.
Rule: Castle Doctrine
Disposition: This case is essentially disposed of and will be permanently disposed
of when papers to expunge are submitted, accounted for, and authorized by a
judge.
Dissent: Dissention may be a problem in the future by various actors of
Stephanie’s conspiracy to defraud through friends and family due to time as a
victim, furthered violations, furthered victimization by slow moving Court
officials, lawyers, and any furthered monetary, space, and time deprivation caused
by current criminal record before expunction, 68th Court action, or Federal
Supreme Court action.
Justice of the Peace:
Mercedes Benz: Theft by Deception
(Stuer vs. England, JP)

JS-18-00323-N,

JS-18-00244-N

Facts: Mr. Stuer had Mr. England sign an agreement that was for his Mercedes
Benz, a rent to own agreement if Mr. England could keep his promise, if not the
agreement would be called off to Mr. Stuer’s favor. Mr. England was never again
found after the disappearance of Mr. Stuer’s Mercedes along with some of his own
father’s drumming equipment. Mr. England essentially stole from Mr. Stuer and
was never able to be served thereafter. The agreement and title to a Lincoln
Continental were ultimately stolen from Mr. Stuer during conspiracy to defraud
him from multiple criminal actors to further his victimization and make it harder
on him to work, make it to Court, etc. This case was even followed up on by the
Judge Judy Show.
Procedure: The case (multiple cases filed) was initiated by Mr. Stuer who had
claim to the car and the title. The case was ultimately dismissed. Mr. Stuer was
further victimized and left without a car. The car agreement has since been stolen
along with a car title for a Lincoln Continental by criminal actors.
Issue: How do you find someone who had an intent to steal from you? At what
point does a theif become known and at what point may we follow up with the

Court about a theft by deception?, Issues facing the Court then become
investigative by talking to investigator, following up with Mr. Stuer, offering
continuances. Judge involved was complacent with the Defendant’s crimes. The
Judge was more concerned about the indentured apprenticeship and financial
indenture of Mr. Stuer leaving him to explain himself multiple times, paying full
amounts, from other persons, to file with the Court, and eventually came to the
conclusion that he “didn’t believe” Mr. Stuer without any further reasons why and
all evidence he had asked for provided; dismissed the case.
Reasoning: This may be the only form of sustenance available to a Petitioner and
as such he may have to pay, through indentured apprenticeship if necessary, to
even be heard. If issues involving a theft by deception are thrown out in Court,
why waste money, and time in civil court, or with contract? I tried multiple times
to summon the Defendant, he simply hid from summon, and was allowed by the
Court to continue stealing vehicles, and committing crimes.
Rule: Penal codes against theft by deception, conspiracy crimes, etc.
Disposition: Criminal procedure. Reporting of change in license plate number on
NTTA cameras with NTTA authentication device and tracking down criminals
involved in theft and conspiracy crimes.
Dissent: NTTA charges still coming through as car has illegally switched license
plate numbers and been effectively stolen / hi-jacked.
[Failure to Maintain Financial Responsibility A3902030 (Stuer vs. State of
rTexas, MQ
Case forced to payment under Extortion and Threats of Contempt for NonPayment. Mr. Stuer was unable to plead innocent due to costs associated the
plea (Costs around $400.00 to plea Not Guilty). The Municipal Court created
a scenario where Mr. Stuer was forced to Plead No Lo Contendre, by
disallowing his Not Guilty plea, and therefore was immediately found guilty
and forced to pay.
Due to finances Mr. Stuer had to use indentured apprenticeship to pay for the
citation and now has it permanently on his record for insurance hikes as the Court
never offered any way to dismiss the claims and only accepted their designated

monetary amounts as a remedy or jail by contempt. The Judge Gumbert refused to
report ongoing maternal fraud or maternal perjury in her Court and required Mr.
Stuer to pay for fees associated with this citation illegally (pay or be jailed by
contempt) and by extortion.
Failure to Maintain Fence / Yard N1201574A/B (Stuer vs. State of Texas, MC)
Case Still Fending Trial
Due to victimization through divorce, loss of finances, being declared financially
indigent, and indentured apprenticeship Mr. Stuer is now unable to pay for various
things people often take for granted, has been on the verge of starvation numerous
times, has been 8 months without running water, etc.
He now risks losing his domicile due to the ongoing victimization, maternal fraud,
financial indigence, financial indenture, debt, criminal record now pending
expunction, credit report harassment over child support amounts fraudulently due
to someone who stole his rightful half of an over million dollar estate, attorneys,
and judges complacent with the defrauding and victimization of him.
His sisters joined the maternal fraud along with oldest sister’s husband Mr. Chaz
English to try and report to the IRS that they were living at 1238 Dalhart, and had
control of Trust Yonv in order to get a homestead tax exemption illegally and
move Mr. Stuer out to make him homeless at the beginning of 2021, all the while
missing a trust meeting in 2020. This charge, Failure to Maintain, is another
attempt to extort more money by Judge Gumbert (who has afforded no relief to Mr.
Stuer as a victim of various crimes and refused to report perjury in her own Court),
due to vandalism which occurred on a portion of the fence, as well as issues paying
$100.00 for mowing, bi-weekly. Mr. Stuer owes $2,000.00 on bills and $8,000.00
on taxes due July 1st, 2021 and has had his home broken into as criminals continue
to victimize him, his once proud estate, and his victim daughter without any relief
from the Courts or Enforcement.

Affidavit of Prosecution
My name is Jules Dylan Stuer and as a victim of crimes I have had to endure,
along with an infant victim child of 2 years old, the following crimes:

Ms. Stephanie Marie Woodall Baggett -Ebbesen -Stuer Reynolds:
•

Perjury / Aggravated Perjury {multiple counts during 255th Court trial) (Penal Code§ 37.03)

•

Fraud (Medicaid, Child Support, Conspiracy to Defraud)(Penal Code § 15.01)

•

Conspire to Commit Person to Mental Facility(Penal Code § 571.020)

•

Conspire to Murder or Cause Injury (Criminal Conspiracy){ Penal Code § 15.02)

•

False Report of Family Violence (Penal Code § 261.107)

•

Child Abuse / Neglect False Report (Penal Code § 261.107)

•

Obstruction or Retaliation (Penal Code § 36.06)

•

Prevention Detection of Fraud (Perjruy to Medical Officer) (Penal Code § 32.0391)

•

Interfere with Investigation of Abuse / Neglect (Penal Code § 261.3032)

•

Record of Fraud to the Court (Penal Code § 37.13)

•

Use of Child for Sales / Solicitation (Penal Code § 51.0145)

•

False Alarm and Report of Emergency (Penal Code § 42.06)

Mr. Gerald Allen Tadlock:
•

Perjury / Aggravated Perjury (multiple counts during 255th Court trial) (Penal Code§ 37.03)

•

Fraud (Constructive, Destroy Remove Concealment)(Penal Codes § 15.01, § 37.101, § 32.47)

•

Conspire to Commit Person to Mental Facility(Penal Code § 571.020)

•

Child Abuse / Neglect False Report (Penal Code § 261.107)

•

Obstruction or Retaliation (Penal Code § 36.06)

•

Failure to Report Child Abuse (Penal Code § 261.109(b))

•

Knowingly Fail to Make Required Child Abuse Report (Penal Code § 261.109(a))

•

Record of Fraud to the Court (Penal Code § 37.13)

•

Prohibited Conflict of Interest (Penal Code § 305.031)

•

Failure to Comply with Federal VRA law (§ 122.204) Failure to Protect (§ 22.04)

Ms. Susan Duesler:
Perjury / Aggravated Perjury (multiple counts during 255th Court trial) (Penal Code§ 37.03)
Fraud (Constructive, Destroy Remove Concealment)(Penal Codes § 15.01, § 37.101, § 32.47)
Conspire to Commit Person to Mental Facility(Penal Code § 571.020)
Child Abuse / Neglect False Report (Penal Code § 261.107)
Obstruction or Retaliation (Penal Code § 36.06)
Exploitation of a Child for Title IV Child Support (Penal Code § 32.53)
Failure to Report Child Abuse (Penal Code § 261.109(b))

•

False Report Childcare (Penal Code § 42.0447)

•

Knowingly Fail to Make Required Child Abuse Report (Penal Code § 261.109(a))

•

Record of Fraud to the Court (Penal Code § 37.13)

•

Prohibited Conflict of Interest (Penal Code § 305.031)

•

Failure to Comply with Federal VRA law (§ 122.204) Failure to Protect (§ 22.04)

Mr. Rvan McFarlin:
•

Perjury / Aggravated Perjury (multiple counts during 298th and 5th Appeals Court trials) (Penal
Code§ 37.03)

•

Fraud (Constructive, Destroy Remove Concealment)(Penal Codes § 15.01, § 37.101, § 32.47)

•

Failure to Report Child Abuse (Penal Code § 261.109(b))

•

Knowingly Fail to Make Required Child Abuse Report (Penal Code § 261.109(a))

•

Record of Fraud to the Court (Penal Code § 37.13)

•

Prohibited Conflict of Interest (Penal Code § 305.031)

•

Failure to Comply with Federal VRA law (Penal Code § 122.204)

•

Failure to Protect a Child (Penal Code § 22.04)

Mr. Carrie Phaneuf:
•

Perjury / Aggravated Perjury (multiple counts during 298th and 5th Appeals Court trials) (Penal
Code§ 37.03)

•

Fraud (Constructive, Destroy Remove Concealment)(Penal Codes § 15.01, § 37.101, § 32.47)

•

Failure to Report Child Abuse (Penal Code § 261.109(b))

•

Knowingly Fail to Make Required Child Abuse Report (Penal Code § 261.109(a))

•

Record of Fraud to the Court (Penal Code § 37.13)

•

Prohibited Conflict of Interest (Penal Code § 305.031)

•

Failure to Comply with Federal VRA law (Penal Code § 122.204)

•

Failure to Protect a Child(Penal Code § 22.04)

Notice has been given to the following Judges:
Judge Cooks, 255th Court:
•

Failure to Report Child Abuse (Penal Code § 261.109(b))

•

Knowingly Fail to Make Required Child Abuse Report (Penal Code § 261.109(a))

•

Record of Fraud to the Court (Penal Code § 37.13) For Decree

•

Exploitation of a Child for Title IV Child Support (Penal Code § 32.53)

•

Obstruction or Retaliation (Penal Code § 36.06)

•

Failure to Comply with Federal VRA law (Penal Code § 122.204)

•

Failure to Protect (Penal Code § 22.04)
Failure to^ollow: Texas Family Code - FAM § 264.123 and
iTexas Code Of Criminal 'procedure-CRIMP Art. 63.0091 Art 63.0091}
low Enforcement Requirements Regarding Reports Of Certain Missing Children]

Judge Beauchamp. 255th Court:
Failure to Report Child Abuse (Penal Code § 261.109(b)}
Knowingly Fail to Make Required Child Abuse Report (Penal Code § 261.109(a))
Record of Fraud to the Court (Penal Code § 37.13) For Writ
Failure to Comply with Federal VRA law (Penal Code § 122.204)
Failure to Protect (Penal Code § 22.04)

Judge Slaughter. 191st Court:
•

Perjury / Aggravated Perjury (Penal Code§ 37.03) for promises to get back with me following
Monday and simply dismissing the case a month later

•

Failure to Report Child Abuse (Penal Code § 261.109(b))

•

Knowingly Fail to Make Required Child Abuse Report (Penal Code § 261.109(a))

•

Failure to Comply with Federal VRA law (Penal Code § 122.204)

•

Failure to Protect (Penal Code § 22.04)

Judge Tobolowskv. 298?* Court:
Failure to Report Child Abuse (Penal Code § 261.109(b))
Knowingly Fail to Make Required Child Abuse Report (Penal Code § 261.109(a))
Record of Fraud to the Court (Penal Code § 37.13)
Failure to Comply with Federal VRA law (Penal Code § 122.204)
Failure to Protect (Penal Code § 22.04)

Chief Justice Burns. 5th Appeals Court:
•

Failure to Report Child Abuse (Penal Code § 261.109(b))

•

Knowingly Fail to Make Required Child Abuse Report (Penal Code § 261.109(a))

•

Failure to Comply with Federal VRA law (Penal Code § 122.204)

•

Failure to Protect (Penal Code § 22.04)

Justice Pederson. 5th Appeals Court:
•

Failure to Report Child Abuse (Penal Code § 261.109(b))

•

Knowingly Fail to Make Required Child Abuse Report (Penal Code § 261.109(a))

•

Failure to Comply with Federal VRA law (Penal Code § 122.204)

•

Failure to Protect (Penal Code § 22.04)

Justice Evans. 5th Appeals Court:
•

Failure to Report Child Abuse (Penal Code § 261.109(b))

•

Knowingly Fail to Make Required Child Abuse Report (Penal Code § 261.109(a))

•

Failure to Comply with Federal VRA law (Penal Code § 122.204)

•

Failure to Protect (Penal Code § 22.04)

Justice involved in TX Supreme Court Decision, Judge Hawkthorne:
•

Failure to Report Child Abuse (Penal Code § 261.109(b))

•

Knowingly Fail to Make Required Child Abuse Report (Penal Code § 261.109(a))

•

Failure to Comply with Federal VRA law (Penal Code § 122.204)

•

Failure to Protect (Penal Code § 22.04)

I am of sound mind and able body. My lack of finances and powerful emotions
toward my cases are a result of 4 years of victimization. My child is now 6 years
old and a caricature of her former self due to the crimes committed against her and
I. Please prosecute all involved with our torturous treatment and offer relief so that
we can heal from this problem created by maternal child abuse, maternal
aggravated perjury, maternal fraud, and criminal actors.

Sincerely,

Mr. Stuer

Additional material
from this filing is
available in the
Clerk's Office.

